No. _______
IN THE

Supreme Court of the United States
JOHN M. MARSHALL; KAREN M. MARSHALL; MARSHALL ASSOCIATED, LLC; ESTATE OF
RICHARD MARSHALL, DECEASED, Patsy L. Marshall, Personal Representative; and
PATSY L. MARSHALL, Transferees,
Applicants,
V.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

ROBERT J. CHICOINE
ROBERT CHICOINE LAW
SODO Commerce Building
66 S. Hanford Street
Suite 300
Seattle, WA 98134
(206) 467-9000
MELISSA ARBUS SHERRY
ERIC J. KONOPKA
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200

ROBERT C. WEAVER
Counsel of Record
FOSTER GARVEY PC
121 SW Morrison Street
11th Floor
Portland, OR 97204
(503) 553-3123
Email: robert.weaver@foster.com
DEVRA R. COHEN
FOSTER GARVEY PC
1111 Third Ave.
Suite 3000
Seattle, WA 98101
(206) 447-4400
Counsel for Applicants

December 16, 2019

RULE 29.6 STATEMENT
Marshall Associated, LLC does not have a parent corporation; it does not
issue stock; nor does there exist a publicly held corporation that owns 10% or more
of its stock.

No. _______
IN THE

Supreme Court of the United States
JOHN M. MARSHALL; KAREN M. MARSHALL; MARSHALL ASSOCIATED, LLC; ESTATE OF
RICHARD MARSHALL, DECEASED, Patsy L. Marshall, Personal Representative; and
PATSY L. MARSHALL, Transferees,
Applicants,
V.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30.3,
Applicants John M. Marshall; Karen M. Marshall; Marshall Associated, LLC;
Estate of Richard Marshall, Deceased, Patsy L. Marshall, Personal Representative;
and Patsy L. Marshall (collectively, “the Marshalls”) respectfully request a 30-day
extension of time, up to and including January 30, 2020, within which to file a
petition for a writ of certiorari to review the judgment of the United States Court of
Appeals for the Ninth Circuit in this case. The judgment of the court of appeals was
entered on July 23, 2019. (A copy of the court’s decision, Marshall v. Commissioner,
782 F. App’x 565 (9th Cir. 2019), is attached hereto as Attachment 1.) The
Marshalls timely filed a petition for panel rehearing and rehearing en banc, which

the Ninth Circuit denied on October 2, 2019. (A copy of the order denying rehearing
is attached hereto as Attachment 2.) Currently, any petition for a writ of certiorari
would be due on December 31, 2019. This application has been filed more than 10
days before the date a petition would be due. See Sup. Ct. R. 13.5. This Court has
jurisdiction under 28 U.S.C. § 1254(1) to review the decision in this case.
1.

This case involves transferee liability under Section 6901 of the

Internal Revenue Code. Section 6901 provides the government with a streamlined
procedural mechanism to collect taxes from transferees, but does not create
substantive liability for the taxes. See 26 U.S.C. § 6901(a). In Commissioner v.
Stern, this Court was faced with the question whether “substantive liability
enforced under [§ 6901] is to be determined by state or federal law.” 357 U.S. 39, 42
(1958). Although the government urged the Court to adopt a federal rule to “further
‘uniformity of liability,’” id. at 44, the Court rejected that position, holding that,
“until Congress speaks to the contrary, the existence and extent of liability should
be determined by state law.” Id. at 45. As the Court explained, “[t]he Government’s
substantive rights . . . are precisely those which other creditors would have under
[state] law.” Id. at 47.
The courts of appeals have interpreted Stern as creating a two-prong,
conjunctive test to determine whether the Internal Revenue Service may collect
taxes from an alleged transferee. Under this framework, the court must evaluate
(1) whether the alleged transferee is liable under state law, and (2) whether that
person or entity is a “transferee” under federal law. See, e.g., Salus Mundi Found. v.

2

Comm’r, 776 F.3d 1010, 1012 (9th Cir. 2014); Diebold Found. v. Comm’r, 736 F.3d
172, 184 (2d Cir. 2013); Starnes v. Comm’r, 680 F.3d 417, 427 (4th Cir. 2012).
2.

Brothers John and Richard Marshall founded Marshall Associated

Contractors, Inc. (“MAC”) in 1965. The brothers and their wives, Karen and Patsy
Marshall, owned equal shares of the company. In 2003, the Marshalls completed
three transactions to sell their stock in MAC, their closely held family business, to
an unrelated third party. Nearly a decade later, the Internal Revenue Service
challenged the transactions and sought to hold the Marshalls liable for the third
party’s subsequent failure to satisfy MAC’s tax liability. The Tax Court “collapsed”
the three transactions, recharacterizing them as a liquidating distribution from
MAC to the Marshalls. The court then concluded that the Marshalls were
“transferees” of MAC’s assets for purposes of 26 U.S.C. § 6901, and held the
Marshalls liable for more than $41 million in unpaid taxes. *
3.

The Ninth Circuit affirmed. See infra Attachment 1. While the court of

appeals purported to apply the two-prong analysis, it did not, in fact, apply the state
law applicable to private creditors to determine whether the three transactions
could be collapsed to make the Marshalls liable for MAC’s unpaid taxes—as Stern
requires. Instead, the court relied on the Oregon Uniform Fraudulent Transfer Act
(which, properly analyzed, does not permit collapsing), a Ninth Circuit case
applying the Arizona Uniform Fraudulent Transfer Act, and two Oregon cases that

*

The Tax Court found John, Karen, and Patsy Marshall each liable for
$8,689,384; Richard Marshall’s estate liable for $8,660,115; and Marshall
Associated, LLC liable for $6,766,500.
3

do not address the law applicable to private creditors, to hold that the Marshalls
were liable.
4.

This case implicates considerable confusion among the courts

regarding the appropriate analysis under Stern and, in particular, the directive that
substantive liability be determined as a matter of state private creditor law. The
decision below continues a concerning trend of federal courts ignoring the law
applicable to private creditors in the relevant state in favor of general principles of
federal law or “uniformity” to collapse transactions and find liability. See, e.g., Slone
v. Comm’r, 810 F.3d 599, 605, 607–08 (9th Cir. 2015) (requiring the Tax Court to
apply federal law to determine whether to collapse transactions); Feldman v.
Comm’r, 779 F.3d 448, 454–57 (7th Cir. 2015) (applying general principles of federal
tax law to collapse transactions). This approach improperly expands the IRS’s
ability to collect taxes from parties that did not incur the liability, causes federal
creep on a critical area of state law, and is directly contrary to this Court’s mandate
in Stern. 357 U.S. at 45. This Court’s review is warranted.
5.

The petition in this case is currently due on December 31, 2019. A brief

extension of time is warranted to prepare and file a petition for a writ of certiorari
in this case.
6.

The additional time sought in this application is necessary because the

attorneys with principal responsibility for drafting the petition have competing
professional commitments over this same time period—and because of the
intervening holidays.

4

7.

Additionally, the Marshalls recently retained Supreme Court counsel.

Specifically, Latham & Watkins LLP was retained in recognition of their extensive
experience before this Court. An extension of time is appropriate to enable those
attorneys to become familiar with the extensive, complex record.
8.

The Ninth Circuit has already issued its mandate in this case.

Consequently, the requested 30-day extension would not delay the issuance of the
mandate. Moreover, the extension requested would not work any meaningful
prejudice on any party.
9.

For these reasons, the Marshalls respectfully request that the time for

filing a petition for a writ of certiorari in this case be extended to and including
January 30, 2020.

5

December 16, 2019

Respectfully submitted,
______________________________
ROBERT C. WEAVER
Counsel of Record
FOSTER GARVEY PC
121 SW Morrison Street
11th Floor
Portland, OR 97204-3141
(503) 553-3123
Email: robert.weaver@foster.com
DEVRA R. COHEN
FOSTER GARVEY PC
1111 Third Ave.
Suite 3000
Seattle, WA 98101
(206) 447-4400
ROBERT J. CHICOINE
ROBERT CHICOINE LAW
SODO Commerce Building
66 S. Hanford Street
Suite 300
Seattle, WA 98134
(206) 467-9000
MELISSA ARBUS SHERRY
ERIC J. KONOPKA
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
Counsel for Applicants

6

ATTACHMENT 1

Case: 17-72955, 07/23/2019, ID: 11373004, DktEntry: 69-1, Page 1 of 5

(1 of 9)

FILED

NOT FOR PUBLICATION

JUL 23 2019

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
JOHN M. MARSHALL; KAREN M.
MARSHALL, Transferees,
Petitioners-Appellants,
v.

No.

U.S. COURT OF APPEALS

17-72955

Tax Ct. No. 28782-11
MEMORANDUM*

COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
MARSHALL ASSOCIATED, LLC,
Transferee,
Petitioner-Appellant,

No.

17-72958

Tax Ct. No. 28661-11

v.
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
ESTATE OF RICHARD L. MARSHALL,
DECEASED, Patsy L. Marshall, Personal
Representative; PATSY L. MARSHALL,

No.

17-72960

Tax Ct. No. 27241-11

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
*

Case: 17-72955, 07/23/2019, ID: 11373004, DktEntry: 69-1, Page 2 of 5

Petitioners-Appellants,
v.
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
Appeals from Decisions of the
United States Tax Court
Argued and Submitted July 11, 2019
Portland, Oregon
Before: TASHIMA, GRABER, and OWENS, Circuit Judges.
Petitioners John, Karen, Richard, and Patsy Marshall (“the Marshalls”) and
Marshall Associated, LLC (“MA, LLC”) appeal from the Tax Court’s decisions on
their petitions challenging notices of transferee liability regarding unpaid taxes by
Marshall Associated Contractors, Inc. (“MAC”). We have jurisdiction under 26
U.S.C. § 7482. We review the Tax Court’s conclusions of law de novo and its
factual findings for clear error. Slone v. Comm’r, 810 F.3d 599, 604 (9th Cir.
2015) (Slone I). We affirm.
1.

The Tax Court properly held that the Marshalls and MA, LLC are

liable for MAC’s unpaid taxes under 26 U.S.C. § 6901 and the Oregon Uniform
Fraudulent Transfer Act (“OUFTA”). See id. at 604-05 (setting forth two-pronged
Stern test).

2

(2 of 9)

Case: 17-72955, 07/23/2019, ID: 11373004, DktEntry: 69-1, Page 3 of 5

For the state-law prong, the Tax Court properly determined that, under
OUFTA, the multiple steps in the transaction through which the Marshalls sold
their MAC stock could be “collapsed” and deemed a “transfer” from MAC to the
Marshalls if the Marshalls had at least constructive knowledge that MAC’s taxes
would not be paid. See Or. Rev. Stat. §§ 95.200(12) (defining “[t]ransfer” broadly
as “every mode, direct or indirect, absolute or conditional, voluntary or
involuntary, of disposing of or parting with an asset or an interest in an asset”),
95.290 (providing that “the principles of . . . equity” supplement OUFTA’s
provisions), 95.300 (providing that OUFTA “shall be applied and construed to
effectuate its general purpose to make uniform the law with respect to the subject
of [OUFTA] among states enacting it”); Slone v. Comm’r, 896 F.3d 1083, 1085-88
(9th Cir. 2018) (Slone II) (holding that a similar stock sale could be collapsed
under the comparable Arizona UFTA if the former shareholders had at least
constructive knowledge of the tax-avoidance purpose), cert. denied, 139 S. Ct.
1348 (2019); Diamond Fruit Growers, Inc. v. Goe Co., 409 P.2d 909, 910 (Or.
1966) (holding that a court of equity may “look through the form of the transaction
to the substance”).
The Tax Court did not clearly err in finding that the Marshalls had at least
constructive knowledge that MAC’s taxes would be unpaid following the stock
sale. See Mark v. State ex rel. Dep’t of Fish & Wildlife, 84 P.3d 155, 163 (Or. Ct.

3

(3 of 9)

Case: 17-72955, 07/23/2019, ID: 11373004, DktEntry: 69-1, Page 4 of 5

App. 2004) (holding that, under Oregon law, “[c]onstructive knowledge exists
when a person is aware of ‘information as would lead a prudent man to believe that
the fact existed, and that if followed by inquiry must bring knowledge of the fact
home to him’” (citation omitted)); see also Slone II, 896 F.3d at 1087-88.
In addition, the “transfer” from MAC to the Marshalls and MA, LLC was
constructively fraudulent under OUFTA because the federal tax claim arose before
the stock sale, MAC did not receive “a reasonably equivalent value in exchange,”
and MAC was left insolvent. Or. Rev. Stat. § 95.240(1).
For the federal-law prong, the Tax Court properly determined, looking
through the form of the MAC stock sale to its substance, that it lacked any business
purpose other than tax avoidance and that the transaction lacked any economic
substance other than the creation of tax benefits. See Slone I, 810 F.3d at 605-06;
see also Slone II, 896 F.3d at 1086.
2.

The Tax Court also properly determined the amount owed by the

Marshalls and MA, LLC. The Tax Court did not clearly err in finding that the
Marshalls failed to show that MAC’s tax liability should be reduced by refreshing
MAC’s expired net operating losses. See Boyd Gaming Corp. v. Comm’r, 177
F.3d 1096, 1098 (9th Cir. 1999) (“The determination that a taxpayer failed to
produce sufficient evidence to support a deduction constitutes a factual finding
subject to the ‘clearly erroneous’ standard of review.” (citation omitted)).

4

(4 of 9)

Case: 17-72955, 07/23/2019, ID: 11373004, DktEntry: 69-1, Page 5 of 5

Further, the Tax Court properly determined that, under Oregon law, the
Marshalls are liable for pre-notice interest. See Or. Rev. Stat. § 82.010(1)(a)
(providing that interest is payable on “[a]ll moneys after they become due”);
Strawn v. Farmers Ins. Co. of Or., 297 P.3d 439, 458 (Or. 2013) (noting that the
justification for interest under Or. Rev. Stat. § 82.010(1)(a) is that “[o]nce due, the
debtor has the use of money to which the debtor is not entitled, while the delay in
payment deprives the creditor of that use”).
Finally, the Tax Court did not improperly double count the noncash assets as
a transfer to both the Marshalls and MA, LLC because they are jointly and
severally liable for MAC’s unpaid tax liabilities and the noncash assets will be
considered only once in collecting against the Marshalls and MA, LLC. See Or.
Rev. Stat. § 95.270(2) (generally limiting transferee liability to “the value of the
asset[s] transferred”).
AFFIRMED.

5

(5 of 9)

ATTACHMENT 2

Case: 17-72955, 10/02/2019, ID: 11451053, DktEntry: 73, Page 1 of 2

FILED

UNITED STATES COURT OF APPEALS

OCT 2 2019

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK

JOHN M. MARSHALL; KAREN M.
MARSHALL, Transferees,
Petitioners-Appellants,
v.

No.

17-72955

Tax Ct. No. 28782-11
ORDER

COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
MARSHALL ASSOCIATED, LLC,
Transferee,
Petitioner-Appellant,

No.

17-72958

Tax Ct. No. 28661-11

v.
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
ESTATE OF RICHARD L. MARSHALL,
DECEASED, Patsy L. Marshall, Personal
Representative; PATSY L. MARSHALL,
Petitioners-Appellants,
v.
COMMISSIONER OF INTERNAL

No.

17-72960

Tax Ct. No. 27241-11

U.S. COURT OF APPEALS

Case: 17-72955, 10/02/2019, ID: 11451053, DktEntry: 73, Page 2 of 2

REVENUE,
Respondent-Appellee.
Before: TASHIMA, GRABER, and OWENS, Circuit Judges.
The panel has voted to deny the petition for panel rehearing. Judges Graber
and Owens voted to deny the petition for rehearing en banc, and Judge Tashima so
recommends.
The full court has been advised of the suggestion for rehearing en banc, and
no judge has requested a vote on whether to rehear the matter en banc. Fed. R.
App. P. 35.
The petition for panel rehearing and the petition for rehearing en banc are
therefore DENIED.

2

